NRC: OIG/96A-12 - Review of Videoconferencing Capabilities and Utilization
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1996 > OIG/96A-12
OIG/96A-12 - Review of Videoconferencing Capabilities and Utilization
May 21, 1996
MEMORANDUM TO:
James M. Taylor
Executive Director for Operations
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
REVIEW OF VIDEOCONFERENCING CAPABILITIES AND UTILIZATION
Attached is the Office of the Inspector General's audit report entitled, "Review of Videoconferencing Capabilities and Utilization."
On May 8, 1996, the Deputy Executive Director for Nuclear Materials Safety, Safeguards and Operations Support responded to our draft report.  He agreed with our findings and recommendations and provided an approach for implementing the recommendations.  He also clarified two points mentioned in the draft report.  In response to the DEDO's comments, OIG modified the report as deemed appropriate.
Attachment: As stated
cc:
H. Thompson, OEDO J. Milhoan, OEDO J. Blaha, OEDO J. Hoyle, SECY K. Cyr, OGC D. Rathbun, OCA R. Scroggins, OC P. Norry, ADM G. Cranford, IRM R. Bangart, OSP W. Russell, NRR E. Jordan, AEOD D. Morrison, RES C. Paperiello, NMSS J. Funches, ICC W. Beecher, OPA T. Martin, RI S. Ebneter, RII H. Miller, RIII L. Callan, RIV OPA-RI OPA-RII OPA-RIII OPA-RIV OPA-RIV-FO
Table of Contents
Report Synopsis
Introduction
Background
Findings
NRC Needs to Reconsider Its Approach to Implementing Videoconferencing in the Agency
NRC Should Fully Assess Potential Uses of Videoconferencing
Conclusions
Recommendations
Agency Comments
Objective, Scope, And Methodology
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Glossary: Office of the Inspector General Products
Report Synopsis
The Office of the Inspector General (OIG) has completed a review of the U.S. Nuclear Regulatory Commission's (NRC) videoconferencing capabilities and utilization.  Our review disclosed that the NRC was taking an office level rather than an agency-wide approach to implementing videoconferencing.
Currently three NRC offices are in the process of obtaining their own videoconferencing capabilities and at least five others have indicated they are interested in having this capability.  We believe that NRC's current, individualized approach could be more costly and less efficient than using a centralized, agency- wide approach to acquiring and implementing videoconferencing.  Therefore, we believe it is an appropriate time for NRC to reconsider current plans for providing videoconferencing capabilities in the agency.  Our report makes three recommendations.
Introduction
During a recent Office of the Inspector General (OIG) report briefing to Federal, state, and local Licensing Support System Advisory Review Panel (ARP) officials, OIG discussed several low cost alternatives, including videoconferencing, as ways for the U.S. Nuclear Regulatory Commission (NRC) to maintain the ARP.  As a result of further inquires into this area, we decided to review NRC's plans for implementing videoconferencing capabilities in the agency.  Appendix I of this report contains additional information on our objective, scope, and methodology.
Background
In July 1987, NRC launched a Pilot Program to review and appraise the potential applications of videoconferencing to such NRC activities as the Emergency Operations Center, on-site inspections, and headquarters and regional training programs.  In 1990, the Office of the Executive Director for Operations (OEDO) suspended additional funding for videoconferencing due to cost concerns and the poor quality of the transmitted/received pictures.
In 1992, some NRC offices again expressed interest in obtaining videoconferencing capability.  As a result, the OEDO directed the Office of Information Resources Management (IRM) to provide this technology only if those offices could justify and budget for their requirements.
In September 1995, the Advisory Committee on Reactor Safeguards/Advisory Committee on Nuclear Waste (ACRS/ACNW), the Office of Nuclear Material Safety and Safeguards (NMSS), and the Office of Personnel (OP) signed Purchase Requests to procure videoconferencing capability.  The fiscal year (FY) 1995 obligations for these Purchase Requests total over $1.1 million.  IRM estimates that videoconferencing will be operational for these offices in May 1996.  In the FY 1997 IRM Technology Assessment Planning Call and in subsequent IRM discussions with program offices, additional offices, including the Office of Nuclear Reactor Regulation and the Office of Nuclear Regulatory Research, have expressed interest in acquiring and using videoconferencing technology.
Findings
We found that NRC should reconsider its current individual office approach to providing videoconferencing capabilities and fully assess potential uses of this technology on an agency-wide basis.  Each of these areas is discussed in the following sections.
NRC Needs to Reconsider Its Approach to Implementing Videoconferencing in
the Agency
We found that the NRC is using an office level approach to implement videoconferencing rather than using a potentially less costly, more efficient agency-wide approach.  We believe as interest in videoconferencing increases, this individualized approach could lead to duplication of effort, overcapacity, and inefficient use of Government resources.
As of March 1996, the NRC had three offices that were acquiring videoconferencing technology. Although IRM funds the infrastructure for voice and data communications, individual offices currently justify requirements and budget and contract for other infrastructure needs related to videoconferencing.
Because videoconferencing equipment is a Government resource, it should be acquired economically and used efficiently.  An IRM official told us that the videoconferencing equipment being acquired has sufficient capacity to meet the agency's current need.  We note that this videoconferencing equipment may not be sufficient to meet future needs.  As interest in this technology increases, we believe an agency-wide policy statement and administrative procedures are needed to address prioritization for usage, upgrade requirements, budget responsibility, and administration and operation of sites and equipment.  Such an agency-wide approach would help NRC ensure that videoconferencing capabilities are acquired and used in the most efficient and cost effective manner.
NRC Should Fully Assess Potential Uses of Videoconferencing
We also found that while some offices have assessed the benefits and cost avoidance of using videoconferencing, the NRC as a whole has not formally studied how to utilize this technology in the most effective way.  In a time of budget cuts and calls for improved Government service, this technology is one way the NRC could potentially reduce agency costs of operation while at the same time increase access and provide timely communications with the industry and the public.
OP, ACRS/ACNW, and NMSS assessed the expected uses and benefits of videoconferencing before they decided to implement this technology.  OP contracted with a consultant to provide an assessment of current classroom training technologies.  This 1993 assessment revealed that videoconferencing capability at the NRC could: increase the ability of the NRC to provide classes to the Regions and the Technical Training Center (TTC), decrease the number of times classes need to be given, and decrease travel costs and productive time lost due to travel and travel related activities.
A 1993 evaluation performed by ACRS/ACNW concluded that they could improve their technical reviews and staff/Committee interactions, as well as improve specific Committee efforts, through the use of videoconferencing in specific applications.  The evaluation also anticipated some reduction in travel costs associated with existing functions.
In their 1994 request for videoconferencing, NMSS's justification included increased interaction on the High-Level Waste Program and significant reductions in travel related to this program.  Similarly, once NMSS acquires videoconferencing capability, this technology could provide a means for NRC to maintain and continue the ARP.
We believe NRC should educate management and staff on how this existing technology could be used to provide further benefits and cost reductions in the operation of the agency.  As the technology becomes more user friendly, more people will want to use it and will find more uses for it.
Conclusions
Videoconferencing appears to offer a low cost alternative to face-to-face training,
meetings, and hearings requiring substantial time and resources. With the pending
operational completion of videoconferencing and the increasing interest throughout
the agency in this technology, we believe it is an appropriate time for the
agency to reconsider its current individual office approach for implementing
videoconferencing. We believe implementing videoconferencing on an agency-wide
basis would be a more cost effective and efficient way to achieve this capability.
In a time of budget cuts, we also believe it is prudent for the NRC to assess
the ways videoconferencing could be used to better manage and utilize its scarce
resources. Furthermore, the technology opens new windows of communication for
the agency and interested parties.
Recommendations
We recommend that the Executive Director for Operations:
Consider shifting from an office level to an agency-wide approach for implementing
videoconferencing;
Develop an agency-wide policy statement and administrative procedures to
address the details for acquiring and providing videoconferencing services;
and,
Determine other potential uses NRC may make of videoconferencing technology.
Agency Comments
On May 8, 1996, the Deputy Executive Director for Nuclear Materials Safety, Safeguards and Operations Support (DEDO) provided comments on our draft report.  These comments are included as Appendix II.
The DEDO agreed with our findings and recommendations and provided an approach
for implementing the recommendations. The DEDO also clarified two points mentioned
in the draft report. The DEDO (1) explained that NRC does not know whether the
videoconferencing equipment being acquired will be sufficient to meet the agency's
needs in the future, and (2) provided information on the agency's approach for
meeting infrastructure requirements. In response to the DEDO's comments, OIG
revised its report as deemed appropriate.
Objective, Scope, And Methodology
The objective of our audit was to evaluate the U.S. Nuclear Regulatory Commission's (NRC) videoconferencing capabilities and plans for utilization.
During our audit we reviewed NRC correspondence and studies related to videoconferencing.  We interviewed headquarter management and staff from the Offices of Executive Director for Operations, Information Resources Management, Administration, Personnel, Nuclear Material Safety and Safeguards, and the Advisory Committee on Reactor Safeguards and the Advisory Committee on Nuclear Waste.
Our review was performed in accordance with generally accepted Government auditing standards during February and March 1996.  Because of the limited scope of this review we did not assess NRC's internal management controls for acquiring videoconferencing capabilities.
U.S. NRC Functional Organization Chart
Figure 1: The
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Corenthis B. Kelley Team Leader
Teresa A. Hayes Auditor
Glossary: Office of the Inspector General Products
Investigative
1. INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees.  Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a 'ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees